     AUDIT REPORT

     COSTS CLAIMED BY
   THE STATE OF INDIANA,
 DEPARTMENT OF NATURAL
RESOURCES, UNDER FEDERAL
 ASSISTANCE GRANTS FROM
THE U.S. FISH AND WILDLIFE
 SERVICE FROM JULY 1, 2000,
   THROUGH JUNE 30, 2002




      Report No. R-GR-FWS-0021-2003
                    DECEMBER 2003
                United States Department of the Interior
                          OFFICE OF INSPECTOR GENERAL
                                       External Audits Division
                                 12030 Sunrise Valley Drive, Suite 230
                                          Reston, VA 20191
                                                                               December 22, 2003

                                    AUDIT REPORT

Memorandum

To:            Director,
               U.S. Fish and Wildlife Service

From:          Joe Ansnick
               Director of External Audits

Subject:       Final Audit Report on Costs Claimed by the State of Indiana, Department of
               Natural Resources, Under Federal Assistance Grants from the U.S. Fish and
               Wildlife Service from July 1, 2000, through June 30, 2002
               (No. R-GR-FWS-0021-2003)

                                         Introduction
       This report presents the results of our audit of the costs claimed by the State of Indiana,
Department of Natural Resources (Department), under Federal Assistance Grants from the U.S.
Fish and Wildlife Service (FWS) from July 1, 2000, through June 30, 2002.

Background and Scope
        The Pittman-Robertson in Wildlife Restoration Act, as amended (16 U.S.C. 669), and the
Dingell-Johnson Aid in Sport Fish Restoration Act, as amended (16 U.S.C. 777) (the Acts),
authorize FWS to provide Federal Assistance grants to the states to enhance their sport fish and
wildlife programs. The Acts provide for FWS to reimburse the states for up to 75 percent of all
eligible costs incurred under the grants. Additionally, the Acts specify that state hunting and
fishing license revenues cannot be used for any purpose other than the administration of the state
fish and game agency.

        As requested by FWS, we performed a financial and compliance audit of Federal
Assistance grants to the State of Indiana. The objective of our audit was to evaluate: (1) the
adequacy of the Department’s accounting system and related internal controls; (2) the accuracy
and eligibility of the direct and indirect costs claimed under the Federal Assistance grant
agreements with FWS; (3) the adequacy and reliability of the Department’s hunting and fishing
license fee collection and disbursement process; (4) the adequacy of the Department’s asset
management system and related internal controls with regard to purchasing, control and disposal;
and (5) the adequacy of the Department’s compliance with the Acts’ assent legislation
requirements. The audit also included an analysis of other issues considered sensitive and/or
significant by the FWS. The audit work at the Department covered claims that totaled
approximately $22 million on FWS grants that were open during the State’s fiscal years ended
June 30, 2001 and 2002 (see Appendix 1).

        Our audit was performed in accordance with government auditing standards issued by the
Comptroller General of the United States. Accordingly, we included such tests of records and
other auditing procedures that were considered necessary under the circumstances. We relied on
the work of the State of Indiana Single Audit Report auditors to the extent possible in order to
avoid a duplication of audit effort. Our tests included an examination of evidence supporting
selected expenditures charged by the Department to the grants; interviews with employees to
ensure that personnel costs charged to the grants were supportable; and a review of the
Department's use of fishing and hunting license revenues to determine whether the revenues had
been used for program purposes. We did not evaluate the economy, efficiency, and effectiveness
of the Department’s operations.

       Our audit was performed at the Indiana Department of Natural Resources located in
Indianapolis, Indiana. We also visited several fish hatcheries and fish and wildlife areas (see
Appendix 2).

Prior Audit Coverage
       On July 27, 1998, we issued audit report No. 98-E-598, “Audit of U.S. Fish and Wildlife
Service Federal Aid Grants to the State of Indiana Department of Natural Resources, Division of
Fish and Wildlife, for Fiscal Years 1994, 1995, and 1996.” We reviewed this report and
followed up on all findings to determine whether they had been resolved prior to our review.

                                      Results of Audit
        Our review disclosed that, except for the issues identified below, the Department’s
accounting system accurately accumulated grant expenditures; the direct and indirect costs were
accurately reported; license fee receipts and disbursements were used for fish and wildlife
purposes; and the hunting and fishing license certifications accurately reported license holders.
The State also had adequate legislation that assented to the provisions of the Acts and prohibited
the use of license fees for anything other than the administration of the Department.

   •   Costs of $2,230 (Federal share $1,673) were questioned because they were ineligible.

   •   The Department did not report program income of $70,042.

   •   Indiana’s Department of Corrections operated a correctional facility on land purchased
       with Federal Assistance funds, which was inconsistent with the purpose for which the
       land was originally acquired.




                                                 2
     •    Improvements are needed in the Department’s time accounting for conservation officers,
          asset management and accounting for grant costs.

        The FWS and the Department responded to a draft of this report on November 10, 2003
addressing each of the findings listed below. Based on the Department’s responses, we modified
the findings and recommendations as necessary to clarify the issues and to incorporate any
additional information provided. We have included the responses after our recommendations to
resolve each finding.

A. Questioned Costs
        We questioned $2,230 (Federal share $1,673) for costs associated with a workplan not
approved in grant number W-26-R-32. Indiana’s Department of Natural Resources had removed
the workplan, identified as a base of operations, because the workplan was not approved in the
grant. However, a subsequent Departmental adjustment resulted in the re-recording of $2,230 of
costs associated with the base of operations. Department officials agreed that the costs should
not have been charged to the grant.

Recommendation

          We recommend that the FWS resolve the $2,230 of questioned costs.

Department Response

       The Department concurred with the finding and deducted the $2,230 of questioned costs
from the total outlays on the final Financial Status Report for grant W-26-R-34.

U.S. Fish and Wildlife Response

       The FWS agreed with the finding and action taken by the Department to resolve the
questioned costs and provided documentation supporting the action taken.

Office of Inspector General Comments

      The documentation provided indicates that appropriate adjustments were made; therefore,
we consider the recommendation resolved and implemented and no further action is required.

B.       Additional Findings
       1. Program Income. The FWS grants have not been credited for the gross program
income generated at Division of Fish and Wildlife areas. As a result, program income was
understated by $70,042 for services provided for in Division leases but not disclosed to FWS.
For example:

          •   The final Financial Status Reports (SF-269) for Grants FW-22-D-33 and FW-22-D-34
              included annual program income of $11,940 from a State Surplus Lease No. 303-


                                                 3
           00/01 DNR, for farming 255 acres at Jasper-Pulaski Fish and Wildlife Area (FWA)
           even though the lease gross income totaled $30,966. The $19,026 difference resulted
           from the Department netting gross income against the lessee’s estimated construction
           costs of a pond ($13,500) and $5,526 for the lessee to purchase chemicals and to
           leave a portion of the crop in the field for use by the FWA.

       •   The final SF-269s for Grants FW-22-D-33 and FW-22-D-34 included annual program
           income of $3,500 from State Surplus Lease No. 304-99-2000 DNR, for farming at the
           Willow Slough FWA even though the lease gross income totaled $19,495. The
           $15,995 difference resulted from the Department netting gross income against the
           costs of the lessee providing 100 hours of bulldozing services valued at $7,000 along
           with purchasing chemicals and leaving a portion of the crop in the field for use by the
           FWA valued at $8,995.

        Program income is defined in 43 CFR § 12.65(b) as gross income received by the grantee
directly generated by a grant supported activity, or earned only as a result of the grant agreement
during the grant period. The grant period is defined as the time between the effective date of the
award and the ending date of the award reflected in the final financial report. In addition, 43
CFR § 12.65(g) requires program income to be deducted from outlays which may be both
Federal and non-Federal unless the Federal agency regulations or the grant agreement specify
another alternative.

       According to Department officials, obtaining services through the reduction of program
income provided benefits to the fish and wildlife areas in its wildlife management efforts. Based
on our review of the grant documents, we could not identify that the benefits provided; i.e., pond
construction or bulldozing services, were agreed to by FWS. We agree that benefits may be
provided through the reduction of program income but that the Department needs to fully report
program income in terms of cash or the value of services provided and obtain approval from the
FWS for the use of program income. In this way, FWS and the state can identify total program
income and program costs, and they can determine what method (deductive or additive) to use to
apply program income to program costs.

Recommendation

        We recommend that the FWS require the Department to adopt procedures to report total
gross income generated by program activity and any reductions to income.

Department Response

        The Department stated that it considered this as an issue of procedural documentation.
The Department acknowledged that the contract process does not report the services in question
as income, but added that it also does not treat products received as costs. As a result, the
Department concluded that there was no fiscal impact and therefore, the finding is a reporting
issue. The Department has met with FWS Region 3 personnel to discuss procedures to resolve
this issue.




                                                 4
U.S. Fish and Wildlife Response

       The FWS concurred that the Department should adopt procedures to report total gross
income generated by program activity and any reductions to income. The FWS agreed to assist
the Department in developing specific procedures providing for full disclosure of services traded
as contained in Departmental lease arrangements.

Office of Inspector General Comments

      We consider the response sufficient to consider this matter resolved but not implemented.
FWS should identify a target date and an official responsible for implementation of the
recommendation.

         2. Inappropriate Use of Federal Assistance Land. The Medaryville Correctional
facility, operated by the Indiana Department of Corrections, is located on land acquired in June
1943 with Federal Assistance funds for developing the Jasper-Pulaski Game Preserve, which is
now the Jasper-Pulaski Fish and Wildlife Area (FWA). According to Indiana officials, the
purchased land included the structures being used as dormitories for prison inmates working at
Jasper-Pulaski FWA. In 1961, a brick dormitory was constructed on the site using Indiana
Department of Corrections’ funding. The use of prison labor assisted in the development of the
FWA from a game preserve. As of March 2003, prison laborers continued to work on the FWA.

        According to 50 CFR § 80.14, real property acquired or constructed with Federal Aid
funds must continue to serve the purpose for which it was acquired or constructed. When such
property passes from the fish and wildlife agency control, the control must be fully restored or
the real property must be replaced using non-Federal Aid funds. Replacement property must be
of equal value at current market prices and with equal benefits as the original property. The
State may have a reasonable time, up to three years from the date of notification by the regional
director, to acquire replacement property before becoming ineligible. When such property is
used for purposes, which interfere with the accomplishment of approved purposes, the violating
activities must cease and any adverse effects resulting must be remedied.

        Since Federal Assistance funds were used to purchase the land upon which the
correctional facility is located, this land cannot be used for its intended purpose of developing
wildlife resources and is, therefore, an inappropriate use.

Recommendation

         We recommend FWS notify the Department of the inappropriate use and either require
full restoration of the property or replace such property with value equal to current market prices
and benefits equal to the original property.




                                                 5
Department Response

        The Department concurred with the finding and provided a brief history of the property
over the past 50 years. The Department has met with FWS Region 3 personnel and developed a
joint agreement defining the situation. A list of options is being developed and a timeline for
implementing a solution agreed to by the FWS and the Department will be established.

U.S. Fish and Wildlife Response

        FWS will be working with the Department to return the property to a use that is eligible
and allowable as a project purpose under Federal Assistance grant programs. In addition, FWS
Region 3 indicated that the Federal Assistance program should receive some compensation for
the use of the land since 1961, when major renovations and expansion were made to the
correctional facility. FWS intends to work closely with the Department to establish corrective
actions and a reasonable implementation schedule.

Office of Inspector General Comments

      We consider the response sufficient to consider this matter resolved but not implemented.
FWS should identify a target date and an official responsible for implementation of the
recommendation.

        3. Use of License Revenues – Law Enforcement. Time coded to the Division of Fish
and Wildlife by the Law Enforcement Division may not be reasonable in relation to the overall
responsibilities of the Law Enforcement Division. Law Enforcement staff coded 82 percent of
its time to fish and wildlife activities, although it received only 29 percent of its funding from
license fees. However, the acreage identified as fish and wildlife comprised only 25 percent of
the land base for which the Law Enforcement Division was responsible. The other acreage
included State Parks (15 percent), Reservoirs (27 percent), and Forestry (33 percent). Further,
the Department’s enforcement duties were assigned to conservation officers whose position
descriptions included not only enforcement of Fish and Wildlife regulations but also numerous
other general law enforcement duties on Departmental, other State, and private lands.

        Assuming that the Law Enforcement Division spends an equal amount of effort enforcing
laws on each acre of land, at most 25 percent of the Law Enforcement Division’s time should be
spent on Fish and Wildlife activities. However, the time reporting system for the Division of
Law Enforcement contained only three time codes to charge time during the period - fish and
wildlife, boating, and other.

        Department officials explained to us that using fish and wildlife land ownership acreage
to estimate the activities of its Law Enforcement staff would not result in an accurate estimate of
their activities because, in addition to enforcing laws on Departmental land, Law Enforcement is
also responsible for enforcing fish and wildlife regulations on all rivers and streams and on
private lands. The time spent enforcing fish and wildlife regulations on rivers and streams and
on private lands would be left out. According to Department officials, Departmental lands total




                                                 6
only about 4 percent of the State’s total land area over which the conservation officers have law
enforcement responsibilities.

        While we agree that these additional areas of responsibility would affect the coding of
law enforcement activities, this disclosure points to the need of a time coding system that truly
reflects where the activities of its Law Enforcement staff take place in addition to what activities
they perform. Without a detailed time accounting system, neither the Department nor we can
accurately determine the proper allocation of law enforcement time and costs to the License Fee
Fund.

        The Division of Law Enforcement funding for state fiscal year 2002 totaled $16.7 million
that came from the General Fund ($10.1 million), the License Fee Fund ($4.8 million), and the
sale of permits ($1.8 million). 50 CFR § 80.4 states that revenues from the license fees paid by
hunters and anglers shall not be diverted to purposes other than administration of the State fish
and wildlife agency. As such, the Department must be able to ensure that the Division of Law
Enforcement activities support at least $4.8 million (29 percent) of fish and wildlife costs.

        The three categories, fish and wildlife, boating, and other, to which the Law Enforcement
staff coded their time, were developed in response to a prior audit report finding regarding the
adequacy of the Law Enforcement time keeping procedures. In our opinion, these three
categories were not adequate because there were no time codes for the other eight Departmental
divisions or for other areas of law enforcement in which the Law Enforcement staff may have
worked. The fact that the Division of Law Enforcement was limited to recording time in only
three categories may have contributed to the large amount of time charged to fish and wildlife
activities.

       During our discussions with Department officials concerning this issue, we were
informed that the Department was attempting to obtain a new time accounting system for the
Division of Law Enforcement that would provide more time codes and coding information.

Recommendation

       We recommend that the FWS require the Department to adopt more descriptive time
codes and coding information for the other Departmental divisions and for the other areas of law
enforcement responsibilities.

Department Response

       The Department agreed that the existing time accounting system should be upgraded to
include a more descriptive series of codes or definitions for the codes reflective of law
enforcement activities. The Department took exception to the recommendation to require the
Department to adopt a new time accounting system. The Department intends to continue
discussions with FWS Region 3 to resolve the issue.




                                                 7
U.S. Fish and Wildlife Response

       The FWS agrees that the Department should improve its time accounting for law
enforcement activities and will work with the Department to resolve the issue.

Office of Inspector General Comments

        We have revised the recommendation to clarify that a new time accounting system was
not a requirement. We consider the response sufficient to consider this matter resolved but not
implemented. FWS should identify a target date and an official responsible for implementation
of the recommendation.

        4. Asset Management. The Department of Natural Resources asset inventory was not
current or complete, and did not identify the funding source; e.g., Federal Assistance, license
fees, or other. For example, on our site visit to Jasper-Pulaski FWA we found equipment items
onsite that were not listed on the State’s on-site inventory such as a New Holland wood boss
purchased on October 30, 2001 for $66,695, and a telescope purchased on March 28, 2000, for
$3,353.

        The Department’s land inventory was accounted for through 1993 on plat maps along
with a summary file of individual land purchases and starting in 1994 in the Department’s Asset
Management System. However, the funding source is not always identified in either system. It
should be noted that the number of land purchases in the land inventory system with unidentified
funding sources is small. For example, on the Glendale FWA plat map, the funding source was
not indicated for 2 of the 101 land acquisitions.

       Federal Regulations require that the State:

       •   Be responsible for the accountability and control of all assets to assure that they serve
           the purpose for which acquired throughout their useful life (50 CFR § 80.18(c) and
           USFWS Manual, Part 522, CH. 1.16 B Equipment),

       •   Maintain current and complete financial, property and procurement records for three
           years after submission of the final expenditure report and for three years following
           final disposition of the property (50 CFR § 80.19),

       •   Use, manage, and dispose of equipment acquired under a grant by the State in
           accordance with State laws and procedures (USFWS Manual, Part 522, CH. 1.16 B
           Equipment & 43 CFR § 12.72 Equipment.)

       Department officials were aware that the Department’s Asset Management System may
or may not reflect the current status of the Division of Fish and Wildlife assets and attributed
some of the inventory problems to system processing errors. Further, the identification of the
funding source was not included in the system programming.




                                                 8
        As a result, the Department of Natural Resources may not be able to ensure easily and in
a timely manner that assets purchased with Federal Aid or license fee funds are utilized solely for
fish and wildlife purposes. The Department was aware of the problems and was attempting to
correct the inventory issues.

Recommendation

       We recommend that the FWS monitor the Department’s establishment of an asset
management system that provides inventory data that is complete and current and that identifies
the funding source.

Department Response

       The Department concurred with the recommendation and stated that it has been working
to improve the asset inventory system for several years and the project will be ongoing for an
extended period.

U.S. Fish and Wildlife Response

        FWS agreed with the recommendation and will monitor the Department’s establishment
of an improved asset management system.

Office of Inspector General Comments

       Based on the response, we consider this matter resolved. FWS should identify a target
date and an official responsible for implementation of the recommendation.

        5. Out of Period Costs – Cash Basis Reporting. Grant costs claimed by the
Department included the recognition of costs based on its cash basis accounting system. The
Department’s application and use of the cash basis of accounting for preparing its final SF-269s
and reporting the financial results of its Federal Aid grants ending on June 30 resulted in the
charging of some SFY 2001 costs to SFY 2002 grants. Correspondingly, some costs were
charged to SFY2001 grants that were costs of SFY 2000 grants. The condition pertained to all
grants no matter when the grant ended.

        According to 43 CFR § 12.63, where a funding period is specified, a grantee may charge
an award only for costs resulting from obligations of the funding period unless carryover of
unobligated balances is permitted, in which case the carryover balances may be charged for costs
resulting from obligations of the subsequent funding period. In addition, the grantee must
liquidate all obligations incurred under the award not later than 90 days after the end of the
funding period to coincide with the submission of the annual Financial Status Report (SF-269).

        The charging of grants for the costs of a prior year or grant occurred because some
obligations for payment occurred near year-end but were not paid (and thus not recognized for
SF-269 reporting) until after the end of the grant’s period of performance. For example, on



                                                9
Grant FW-22-D-34, the Department claimed and was reimbursed the costs of a contractor at
Atterbury FWA, who was paid $8,850 on February 5, 2001, for services delivered in the prior
grant ending January 31, 2001.

        As a result, the Department’s claimed grant expenditures can include a prior grant’s
costs, which would not be allowable. The Department’s application and use of the cash basis of
accounting has been consistent during the audit period. Furthermore, according to Department
officials, this method was in accordance with FWS direction and concurrence.

Recommendation

        We recommend that the FWS require the Department to include all grant obligations
liquidated between the end of the grant period and the filing of the final SF-269 for every Federal
Assistance grant.

Department Response

       The Department did not concur with the finding, and stated that the cash basis of
accounting meets all state and Federal requirements for accounting of Federal funds. Further,
according to the Department, use of any other method could create internal control issues,
present difficulties balancing subsidiary records with official records, and could result in the
potential of not being able to close a grant within the 90-day period.

U.S. Fish and Wildlife Response

       The FWS stated that it would determine whether the Department’s use of cash basis
accounting to report claimed costs on Federal Assistance grants is consistent with reporting
requirements.

Office of Inspector General Comments

       Based on the response, we consider this matter unresolved. FWS should determine if it
concurs with the finding and if so, identify a target date and an official responsible for
implementation of the recommendation.


        In accordance with the Departmental Manual (360 DM 5.3), please provide us with your
written response by March 24, 2004, to the recommendations included in this report. Your
response should include information on actions taken or planned, including target dates and titles
of officials responsible for implementation. If you have any questions regarding this report,
please contact me at (703) 487-5353 or Mr. K. Timothy Gallagher, Team Leader, at (916)
978-5657.

cc:    Regional Director, Region 3
       U.S. Fish and Wildlife Service




                                                10
                                                                                                APPENDIX 1


              INDIANA DEPARTMENT OF NATURAL RESOURCES
               FINANCIAL SCHEDULE OF REVIEW COVERAGE

            Grant               Grant              Claimed          Questioned        Federal
           Number              Amount              Costs*             Costs            Share    Note
        F-10-D-33             $1,500,000          $1,289,354
        F-10-D-34              1,800,000           1,695,840
        F-10-D-35              1,839,662             423,758
        F-15-D-61                120,000               7,850
        F-15-D-63                 14,025              14,026
        F-15-D-64                192,405                   0
        F-15-D-65                 67,037              81,058
        F-15-D-67                564,000                   0
        F-18-R-15                733,768             731,729
        F-21-D-10              1,600,000             889,983
        F-21-D-11              2,000,000           1,433,792
        F-21-D-12              1,860,900             810,627
        F-24- E-2                400,000             484,472
        F-24-E-5                 132,000              42,227
        F-24-E-6                 161,385             144,666
        F-24-E-7                 168,230              53,762
        FW-14-C-47               115,900             123,003
        FW-14-C-48               119,826             140,286
        FW-21-D-34             2,959,630           2,057,219
        FW-21-D-35               870,000             229,809
        FW-22-D-33             5,000,000           2,701,764
        FW-22-D-34             5,048,636           4,375,470
        FW-22-D-35             4,166,211           1,524,452
        FW-26-T-10               318,843             186,314
        FW-26-T-11               406,910             320,100
        FW-28-D-1              2,878,191           1,971,318
        W-26-R-32                563,657             337,154           $2,230          $1,673     1
        W-26-R-33                920,670             571,428
        W-32-S-5                  98,000              98,003
        W-32-S-6                  15,238              14,332
            Totals           $36,635,124         $22,753,796           $2,230          $1,673
___________________
* Includes only amounts recorded during the audit period, July1, 2000, through June 30, 2002.

Note: 1. Questioned costs pertain to an unapproved work plan included in the Statewide
         Wildlife Research grant (see Questioned Costs, A).

                                                        11
                                                   APPENDIX 2


INDIANA DEPARTMENT OF NATURAL RESOURCES
                  SITES VISITED

        Pigeon Fish and Wildlife Area
        Law Enforcement District 1, Syracuse, IN
        Fawn State Fish Hatchery
        Tri-County Fish and Wildlife Area
        Kingsbury Fish and Wildlife Area
        Mixswabah State Fish Hatchery
        Kankakee Fish and Wildlife Area
        Jasper-Pulaski Fish and Wildlife Area
        Winamac Fish and Wildlife Area
        Willow Slough Fish and Wildlife Area
        La Salle Fish and Wildlife Area
        Cikana State Fish Hatchery
        Avoca State Fish Hatchery
        Sugar Ridge Fish and Wildlife Area
        Blue Grass Fish and Wildlife Area
        Law Enforcement District 8, Birdseye, IN
        Glendale Fish and Wildlife Area
        East Fork State Fish Hatchery




                            12
                             How to Report
                 Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone B Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related to Departmental or Insular
Area programs and operations. You can report allegations to us by:
              Mail:          U.S. Department of the Interior
                             Office of Inspector General
                             Mail Stop 5341-MIB
                             1849 C Street, NW
                             Washington, DC 20240

              Phone:         24-Hour Toll Free                800-424-5081
                             Washington Metro Area            202-208-5300
                             Hearing Impaired (TTY)           202-208-2420
                             Fax                              202-208-6081

              Internet:      www.oig.doi.gov/hotline_form.html




                            U.S. Department of the Interior
                              Office of Inspector General
                                  1849 C Street, NW
                                Washington, DC 20240
                                        www.doi.gov
                                       www.oig.doi.gov
